 OFFICE OF AUDIT
 REGION X
 SEATTLE, WA




     The State of Washington Generally Complied
    With Lead Hazard Control Grant and Recovery
       Act Requirements but Charged Excessive
                 Administrative Costs




Audit Report Number: 2012-SE-1005         August 9, 2012
                                                        Issue Date: August 9, 2012

                                                        Audit Report Number: 2012-SE-1005




TO:            Jon L. Gant, Director of Healthy Homes and Lead Hazard Control, L

               //signed//
FROM:          Ronald Hosking, Regional Inspector General for Audit, Seattle Region, 0AGA


SUBJECT:       Washington State Generally Complied With Lead Hazard Control Grant and
               Recovery Act Requirements but Charged Excessive Administrative Costs


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the State of Washington’s Recovery Act
Lead Hazard Control grant.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
913-551-5872.




                                                  
                                           August 9, 2012
                                           Washington State Generally Complied With Lead Hazard
                                           Control Grant and Recovery Act Requirements but Charged
                                           Excessive Administrative Costs



Highlights
Audit Report 2012-SE-1005



 What We Audited and Why                    What We Found

We audited the Washington State            The State generally complied with Lead Hazard
Department of Commerce to determine        Control grant and Recovery Act requirements. It
whether it complied with Lead Hazard       selected eligible projects, provided adequate matching
Control grant project eligibility,         contributions, and accurately reported Recovery Act
matching contribution, administrative      grant information. However, the State charged
cost, and American Recovery and            excessive administration costs to the Recovery Act
Reinvestment Act reporting                 Lead Hazard Control grant. This condition occurred
requirements. This audit is part of the    because the State misunderstood the grant’s
national mandate to monitor grant          administrative cost limitation requirement. As a result,
activities funded by the Recovery Act.     $202,824 was unavailable for lead-based paint control.
We selected Washington State because
it received the largest Lead Hazard
Control grant in the State.



 What We Recommend

We recommend that HUD require the
State to reimburse the U.S. Treasury the
$202,824 spent on excessive
administrative costs and provide
training on the Lead Hazard Control
grant program to the State.




                                                  
                           TABLE OF CONTENTS


Background and Objective                                                           3

Results of Audit
      Finding: The State Charged Excessive Administrative Costs to Its Recovery Act 4
               Lead Hazard Control Grant

Scope and Methodology                                                              6

Internal Controls                                                                  8

Appendixes
A.    Schedule of Questioned Costs                                                  9
B.    Auditee Comments and OIG’s Evaluation                                        10




                                            2
                       BACKGROUND AND OBJECTIVE

State of Washington

The State of Washington was awarded a $3 million American Recovery and Reinvestment Act
Lead Hazard Control grant (grant number WALHB0422-08), which was administered by the
State’s Department of Commerce Housing Improvements and Preservation Unit. The State used
the Lead Hazard Control grant to provide funding for the control of lead-based paint hazards in
low-income families’ homes, training in lead-safe work practices, lead awareness, and outreach
educational materials. The State worked with 10 subgrantees to administer the grant across the
State of Washington.

Recovery Act Lead Hazard Control Grant

The Recovery Act included a $100 million appropriation for the Office of Healthy Homes and
Lead Hazard Control. Of the Recovery Act appropriation, $78 million was announced as Lead-
Based Paint Hazard Control awards. The purpose of the Lead-Based Paint Hazard Control Grant
Program is to assist States, Native American tribes, cities, counties or parishes, or other units of
local government in undertaking comprehensive programs to identify and control lead-based
paint hazards in eligible privately owned rental or owner-occupied housing.

The Lead Hazard Control grants were first awarded to eligible applicants that applied under the
2008 Notice of Funding Availability (NOFA) but did not receive grants due to funding
limitations. The 2008 NOFA required Lead Hazard Control grantees to use at least 65 percent of
the grant awarded on direct lead hazard control costs and no more than 10 percent of the grant on
administrative costs.

Our objective was to determine whether the State complied with Lead Hazard Control grant
project eligibility, matching contribution, administrative cost, and Recovery Act reporting
requirements.




                                                 3
                               RESULTS OF AUDIT


Finding: The State Charged Excessive Administrative Costs to Its
         Recovery Act Lead Hazard Control Grant
The State charged excessive administrative costs to its Recovery Act Lead Hazard Control grant.
This condition occurred because the State misunderstood the grant’s administrative cost
limitation requirement. As a result, $202,824 was unavailable for lead-based paint control.



 Excessive Administrative Costs

              The State charged excessive administrative costs to its Recovery Act Lead Hazard
              Control grant. It charged the grant $290,492 for its administration costs and
              allowed its subgrantees to charge the grant $212,332 for administrative
              expenditures. The subgrantee administrative costs were budgeted in the subgrant
              agreements signed by the State.

              According to the Lead Hazard Control 2008 NOFA, administrative costs could
              not exceed 10 percent of the grant award. Thus, only $300,000 of the $3 million
              grant could be used for administrative costs. The $502,824 total exceeded the
              administrative expense limit by $202,824 and was nearly 17 percent of the grant
              amount.

 Misunderstood Requirement

              The State misunderstood the grant’s administrative cost limitation requirement. A
              previous NOFA included an appendix stating that subgrantee program planning
              and management costs were not included in the 10 percent administrative cost
              limit. However, the 2008 NOFA did not include this same appendix.
              Consequently, the State did not understand that the 10 percent administrative cost
              limit described in the 2008 NOFA applied to total administrative costs charged to
              the grant.

 Unavailable Funds

              As a result of the State’s misunderstanding, $202,824 was unavailable for lead-
              based paint control.




                                               4
                                                
Recommendations

          We recommend that the Director of HUD’s Office of Healthy Homes and Lead
          Hazard Control

          1A.     Require the State to reimburse the U.S. Treasury the $202,824 spent on
                  excessive administrative costs.

          1B.     Provide training to the State on the Lead Hazard Control grant program.




                                           5
                                            
                         SCOPE AND METHODOLOGY

We performed our onsite audit work between April and May 2012 at the State’s office located at
1011 Plum Street SE., Olympia, WA, and at five subgrantee offices at various locations in the
State of Washington. Our review covered the period April 2009 to April 2012.

To accomplish our objective, we reviewed applicable laws, regulations, HUD requirements, and
the 2008 Lead-Based Paint Hazard Control NOFA; interviewed HUD and State staff members;
and examined the State’s policies and procedures, Recovery Act reports, grant agreement, and
subgrant agreements. We reviewed and analyzed the State’s documentation covering Recovery
Act reporting and the Recovery Act Lead Hazard Control grant matching funds.

 For our initial sample, we selected the five of the ten subgrantees that were awarded the most
Recovery Act Lead Hazard Control grant funds totaling more than $2 million. We examined the
State’s subgrantee files and first and last contract payment requests. We also reviewed available
documentation on project eligibility, subgrantee monitoring, and Davis-Bacon prevailing wage
compliance relevant to the Recovery Act Lead Hazard Control grant program. We conducted
site visits to the five subgrantees and performed drive-by visits to randomly selected properties
assisted with Recovery Act Lead Hazard Control grant funds. During the site visits, we
randomly selected and reviewed the subgrantees’ contract payment requests and the assisted
properties’ files.

  Subgrantee                1              2               3             4              5
  Total assisted
  properties                29             1               2            22              17
  Total visited
  properties                18             1               2             6              4
  Total contract
  payments                  30             4               8            28              29
  Contract payments
  reviewed                  6              4               8             2              2
  Total dollars
  reviewed               $53,443       $323,044       $233,829        $52,185        $42,664


We reviewed the State and all 10 subgrantees for administrative costs charged to the Recovery
Act Lead Hazard Control grant. We reviewed the most recent Line of Credit Control System
(LOCCS) draw from the State and the most recent or last contract payment request made by the
subgrantees detailing total administrative costs charged.

We did not use computer-generated data to support our audit conclusions. We compared the
source documentation maintained by the State and the subgrantees to data reported in LOCCS
and FederalReporting.gov. All conclusions were based on source documentation reviewed
during the audit.


                                                6
                                                 
We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               7
                                                
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Controls to reasonably ensure that Recovery Act Lead Hazard Control
                      projects are managed efficiently and effectively.
                     Controls to ensure that Recovery Act Lead Hazard Control grant funds are
                      used in compliance with the Recovery Act and HUD requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion
               on the effectiveness of the State’s internal control.




                                                 8
                                                   
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS


                       Recommendation                       Ineligible 1/
                           number

                                    1A                         $202,824


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.




                                             9
                                              
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                       Auditee Comments




                                           STATE OF WASHINGTON

                                 DEPARTMENT OF COMMERCE
              1011 Plum Street SE  PO Box 42525  Olympia, Washington 98504-2525  (360) 725-4000

                                            www.commerce.wa.gov

             August 2, 2012



             Mr. Ronald J. Hosking, Regional Inspector General for Audit
             Office of Audit (Region 10)
             909 First Avenue, Suite 126
             Seattle, Washington 98104

             Dear Mr. Hosking:

             This letter is the Department of Commerce’s (Commerce) formal response to
             the preliminary audit finding as outlined in your letter dated July 11, 2012. We
             appreciate the opportunity to clear up what we regard as confusion on the
             application of administration costs. We believe we can provide you assurance
             and documentation that will show compliance with the 10 percent
             administrative limit.

Comment 1    The auditors looked at five sub-grantees that received American Recovery and
             Reinvestment Act (ARRA) funding for lead hazard control, including the City
             of Tacoma, Spokane Neighborhood Action Program (SNAP), Kitsap County
             Consolidated Housing Authority (Kitsap), Historic Seattle, and Opportunities
             Industrialization Center (OIC).




                                               10
                                                 
            Commerce issued contracts with the sub-grantees with an administrative
            category of 10 percent of each sub-grantees total award. In addition,
            Commerce properly charged its administrative fee of 10 percent to the grant.
            This led the auditors to believe that instead of the 10 percent allowable
            administrative costs, Commerce charged an administrative cost of 16.7
            percent, or $202,824 over that allowed.

Comment 2   In looking at the charges for sub-grantee “administration,” most of the charges
            were for salary and fringe benefits for direct or allowable costs under the grant.
Comment 3   In the case of SNAP, Kitsap, and OIC, costs that could have been charged
            under direct and allowable were instead broken out and placed in the
Comment 4   administrative category. Enclosed is a chart showing the staff assigned to the
            grant and the duties they performed.

Comment 5   In the case of the City of Tacoma, all direct staff were charged as
            administrative costs. For example, in the January 2011 billing, the City of
            Tacoma charged $787.84 to administration, of that $690.57 went towards
Comment 6   salaries and fringe for [Employee 1] and [Employee 2]. [Employee 1] was the
            project manager for the City of Tacoma and directed the lead work onsite.
Comment 7   [Employee 2] tracked the costs of the grant. The remainder went to a title of a
            deed and postage to mail the. deed Both direct expenses. This is but one
Comment 8   example among the sub grantees who made charges to the administrative
            category instead of the program category, resulting in an inflated
            administrative expenditure, when in fact, the cost remained consistent with the
            intent of the direct cost category and being a direct benefit cost to the client.

            Despite the inflated administration costs, Commerce met or exceeded all of the
            benchmarks for the grant including spending at least 65% on lead based paint
            hazard control. In fact, the total administration that Commerce received was
            less than the allocated $300,000--approximately $273,000 because in an effort
            to spend the grant as required, the State over contracted and had to pass some
            of the real administrative costs onto sub grantees for their direct expenses.
Comment 9
            The Office of Healthy Homes and Lead Hazard Control (OHHLHC) has yet to
            define what an administrative cost is. During the OHHLC Grantee Program
            Manager’s Training April 27-28th, 2009, OHHLC stated that the 10 percent
            administration costs were defined by the grantee. Commerce relied on that to
            determine the administrative costs as being the costs incurred by Commerce
            towards administering the grant not including administration given to the sub
            grantee for direct and allowable costs.




                                            11
                                              
Comment 10 The confusion can be attributed to HUD’s historical direction and policy
           interpretation regarding allowed administration rate. The 10 percent
           administration category in the sub-grantee contracts went towards either direct
           or other allowable costs as stated in the 2008 Notice of Funding Availability
           (NOFA).

               If you have questions regarding this letter, please contact Cynthia Sanderson,
               Lead Program Manager at Cynthia.Sanderson@commerce.wa.gov or (360)
               725-2941.


               Sincerely,


               Dan McConnon, Deputy Director
               Community Services and Housing Division




                                              12
                                                 
                                    City of Tacoma             
Comment 6
             Name            Duties                          Direct/Allowable 
Comment 11   [Employee 1]    onsite project coordinator      Direct  
                             Data collection analysis and 
Comment 12   [Employee 2]    evaluation                      Allowable Cost 
                             Environmental Reviews and 
Comment 13   [Employee 3]    Davis Bacon                     Direct 
                             Program oversight and 
Comment 14   [Employee 4]    eligibility verification        Direct 
                                           Kitsap              
             Name            Duties                          Direct/Allowable 
Comment 11   [Employee 1]    Project Coordinator             Direct 
                             Environmental Review and 
                             Eligibility verification for 
Comment 15   [Employee 2]    applicants                      Direct 
                             Risk assessor provides paint 
                             inspection/assessments 
                             oversees contractors and 
                             clearance for contractor 
Comment 16
             [Employee 3]    work                            Direct 
                                         SNAP                  
             Name            Duties                          Direct/Allowable 
                             Data collection analysis and 
Comment 12   [Employee 1]    evaluation                      Allowable Cost 
                             Data collection analysis and 
Comment 12   [Employee 2]    evaluation                      Allowable Cost 
Comment 11   [Employee 3]    Project Coordinator             Direct 
                             Oversees lead work 
Comment 17                   conducted on individual 
             [Employee 4]    projects.                       Direct 
                             Oversees lead work 
                             conducted on individual 
Comment 17   [Employee 5]    projects.                       Direct 
                             Construction Project 
Comment 18   [Employee 6]    inspector                       Direct 
                             Construction Project 
Comment 18   [Employee 7]    inspector                       Direct 




                                  13
                                     
                              Construction Project 
Comment 18   [Employee 8]     inspector                       Direct 
                              Data collection analysis and 
Comment 12   [Employee 9]     evaluation                      Allowable Cost 
                              Construction Project 
Comment 18
             [Employee 10]    inspector                       Direct 
                              Environmental Review and 
Comment 15                    Eligibility verification for 
             [Employee 11]    applicants                      Direct 
                                             OIC                
             Name             Duties                          Direct/Allowable 
                              Inspects projects risk 
Comment 19   [Employee 1]     assessor                        Direct 
                              Data collection analysis and 
Comment 12
             [Employee 2]     evaluation                      Allowable Cost 
Comment 12                    Data collection analysis and 
             [Employee 3]     evaluation                      Allowable Cost 
Comment 12                    Data collection analysis and 
             [Employee 4]     evaluation                      Allowable Cost 
Comment 12                    Data collection analysis and 
             [Employee 5]     evaluation                      Allowable Cost 
                              Data collection analysis and 
Comment 12   [Employee 6]     evaluation                      Allowable Cost 
                              Data collection analysis and 
Comment 12
             [Employee 7]     evaluation                      Allowable Cost 
Comment 12                    Data collection analysis and 
             [Employee 8]     evaluation                      Allowable Cost 
                              Data collection analysis and 
Comment 12   [Employee 9]     evaluation                      Allowable Cost 




                                  14
                                     
                         OIG Evaluation of Auditee Comments

Comment 1   For our initial sample, we selected these five of the ten subgrantees. However we
            expanded our sample to all 10 subgrantees for administrative costs charged to the
            Recovery Act Lead Hazard Control grant.

Comment 2   While salary and fringe benefits were a large part of the administrative costs
            charged by the subgrantees to the lead hazard control grant, the subgrantees also
            charged administrative costs for office space, utilities, building depreciation,
            maintenance supplies, and other administrative expenses. These costs are not
            included in the 2008 NOFA’s definition of direct or other allowable costs and are
            considered administrative costs.

Comment 3   The Lead Hazard Control 2008 Notice of Funding Availability defined the
            following allowable costs:

            Lead Hazard Control Direct Costs
            Lead hazard control direct costs specifically related to the performance of lead
            hazard control activities. Lead hazard control activities are defined as:
            1. Performing lead dust, soil and paint-chip testing, lead-based paint inspections,
               risk assessments, clearance examination, and engineering and architectural
               activities,
            2. Laboratory analysis,
            3. Lead-based paint testing results, summaries of lead-based paint hazard control
               treatments, and clearances,
            4. Interim controls of lead-based paint hazards including lead-contaminated dust
               and soil in housing must include specialized cleaning techniques to address
               lead dust,
            5. Abatement of all lead-based paint (upon the auditee’s special request to
               HUD),
            6. Minimal housing rehabilitation activities specifically required to carry out
               effective hazard control, and
            7. Temporary relocation of families and individuals.

            Other Allowable Costs
            Other allowable costs are costs for allowable activities that are not lead hazard
            control direct costs. These other allowable activities include:
            1. Purchasing or leasing equipment having a per-unit cost under $5,000,
            2. Performing blood lead testing and air sampling,
            3. Conducting targeted outreach, affirmative marketing, education or outreach
               programs on lead hazard control and lead poisoning prevention,

                                             15
                                               
             4. Supporting data collection, analysis, and evaluation of grant program
                activities,
             5. Providing resources to build capacity for lead safe housing and lead hazard
                control, including free delivery of HUD-approved lead-safe work practices
                training courses
             6. Conducting planning, coordination, and training activities to support the
                expansion of a workforce properly trained in lead-safe work practices
             7. Participating in applied research, studies, or developing information systems
                to enhance the delivery, analysis, or conduct of lead hazard control activities

             Other Costs
             Other costs are administrative costs and cannot exceed 10 percent of the grant
             award.

             If the cost charged to the grant did not fall under the first two categories then by
             default, the cost was under the “Other Costs” category and an administrative cost.

Comment 4    The State did not provide any supporting documents for the chart showing staff
             assignment and duties.

Comment 5 Project management conducted by the subgrantee is not included in the 2008
          NOFA’s definition of direct or other allowable costs and is therefore an
          administrative cost. While data collection, analysis, and evaluation falls under
          other allowable program cost, day-to-day operations of fiscal, clerical, and
          administrative staff such as making contract payment requests are not included in
          other allowable costs and are administrative costs.

Comment 6    We replaced the all the sub grantee employee names with employee numbers to
             protect the privacy of the employees named.

Comment 7 The only acquisition costs allowed under the Lead Hazard Grant program is for
          the purchase or lease of equipment having a per-unit cost under $5,000. Costs
          associated with the acquisition of real property are not eligible under the Lead
          Hazard Control program and so the costs associated with the deed title and
          postage should not be charged to the Lead Hazard Control grant.

Comment 8    Based on our review of the sub grantee records, the administrative costs the sub
             grantees charged to the administrative category were appropriately identified as
             administrative costs.

Comment 9    The 2008 Lead Hazard Control NOFA defined three allowable cost categories
             including lead hazard control direct costs, other allowable costs, and other costs
             (administrative). If costs charged to the grant were not included in the definition
             of direct or other allowable costs, by default the cost was an administrative cost.



                                              16
                                                
Comment 10 As we stated in the report, we do acknowledge that changing criteria as attributed
           to the confusion regarding administrative costs. However, the majority of the
           administrative costs charged by the subgrantees did not go to direct or other
           allowable costs as defined by the 2008 NOFA.

Comment 11 Project coordination is not included in the 2008 NOFA’s definition of direct or
           other allowable costs; therefore the cost is an administrative cost.

Comment 12 The State will need to show how these sub-grantee staff members activities were
           related to the data collection, analysis, and evaluation of grant program activities.

Comment 13 While costs related to laboratory analysis and testing results are direct program
           costs, costs related to carrying out Davis-Bacon prevailing wage compliance are
           not included in the 2008 NOFA’s definition of direct or other allowable costs and
           are therefore administrative costs. The State will need to provide an itemized
           break-down of the staff member’s hours spent on conducting environmental
           review and carrying out Davis-Bacon prevailing wage compliance.

Comment 14 Costs relating to program oversight and eligibility verification are not included in
           the 2008 NOFA’s definition of direct or other allowable costs; therefore the cost
           is an administrative cost.

Comment 15 While costs related to laboratory analysis and testing results are direct program
           costs, costs related to verifying applicant eligibility are not included in the 2008
           NOFA’s definition of direct or other allowable costs and are therefore
           administrative costs. The State will need to provide an itemized break-down of
           the sub-grantee staff member’s hours spent on conducting environmental review
           and verifying applicant eligibility.

Comment 16 While costs relating to paint inspection and assessment are direct program costs,
           costs related to contractor oversight are not included in the 2008 NOFA’s
           definition of direct or other allowable costs and are therefore administrative costs.
           The State will need to provide an itemized break-down of the sub-grantee staff
           member’s hours spent on conducting paint inspections and assessments and on
           overseeing contractors.

Comment 17 Unless these costs are relate to the direct supervision of lead hazard control
           activities, costs related to contractor oversight are not included in the 2008
           NOFA’s definition of direct or other allowable costs and are therefore
           administrative costs.

Comment 18 While costs relating to paint inspections and assessments are direct program costs,
           costs related to general project construction inspections are not included in the
           2008 NOFA’s definition of direct or other allowable costs and are therefore
           administrative costs. The State will need to provide an itemized break-down of



                                               17
                                                 
              the sub-grantee staff member’s hours spent on conducting paint inspections and
              assessments and on general project construction inspections.

Comment 19 Unless these costs are related to the direct inspection of lead-based paint, costs
           related to general inspections are not included in the 2008 NOFA’s definition of
           direct or other allowable costs and are therefore administrative costs.




                                              18
                                                
